OFFICE OF INSPECTOR GENERAL

                  Audit Report

Audit of the Railroad Retirement Board’s Fiscal Year 2013
Compliance with the Improper Payments Elimination and
                   Recovery Act of 2010




                   Report No. 14-05
                    March 28, 2014




 RAILROAD RETIREMENT BOARD
                             EXECUTIVE SUMMARY

The Office of Inspector General (OIG) for the Railroad Retirement Board (RRB)
conducted an audit of the RRB’s fiscal year (FY) 2013 compliance with the
Improper Payments Elimination and Recovery Act of 2010 (IPERA) which
amended the Improper Payment Information Act of 2002.


Findings

Our audit determined that:

   1. the RRB complied with the applicable IPERA reporting requirements;
      however, the risk assessment process needs improvement;
   2. the RRB’s IPERA reporting was complete and we found no inaccuracies;
      and
   3. the RRB reduced improper payments for the Railroad Retirement Act
      (RRA) and Railroad Unemployment Insurance Act benefit payment
      programs.

Key Recommendation

We recommended that agency management identify all programs they
administer (including Railroad Medicare) during the risk assessment process for
improper payments.

Other Matters – Future Improper Payment Estimates

The OIG’s ongoing investigations related to the occupational disability program
could result in higher future improper payment estimates for the RRA benefit
payment program.

We found that the agency did not include improper annuities which were paid to
Long Island Rail Road occupational disability annuitants in its improper payment
estimates for this reporting period because the amount of overpayments had not
been established. As investigations were not concluded, this did not affect the
agency’s compliance with IPERA for FY 2013. Since the OIG considers these
fraudulent annuities to be improper payments, the agency needs to consider
them in future improper payment estimates for the RRA benefit payment
program.

The RRB’s future improper payment estimates will also be impacted if the
agency’s risk assessment concludes that the Railroad Medicare Program is
susceptible to significant improper payments.


                                        i
Management’s Response

Agency management concurred with our recommendation. They stated that they
will include a discussion about the Medicare program in the risk assessment
section of the FY 2014 Performance and Accountability Report. The full text of
agency management’s response is included in this report as Appendix II.




                                      ii
                                            TABLE OF CONTENTS
EXECUTIVE SUMMARY .................................................................................................... i

INTRODUCTION

  Background ..................................................................................................................... 1

  Audit Objectives .............................................................................................................. 3

  Scope .............................................................................................................................. 3

  Methodology .................................................................................................................... 3

RESULTS OF AUDIT

  Publication of a Performance and Accountability Report................................................. 5

  Program Specific Risk Assessment................................................................................. 6

       Recommendation ....................................................................................................... 7
       Management’s Response .......................................................................................... 7

  Improper Payment Estimates .......................................................................................... 8

  Programmatic Corrective Action Plans ............................................................................ 8

  Annual Reduction Targets ............................................................................................... 9

  Gross Improper Payment Rate ........................................................................................ 9

  Recapture Improper Payments ..................................................................................... 10

  Payment Recapture Audit Programs ............................................................................. 11

  Evaluation of Completeness and Accuracy ................................................................... 12

  Evaluation of Performance ............................................................................................ 12

  Other Matters – Future Improper Payment Estimates ................................................... 13

APPENDICES

  Appendix I – Statistical Sampling Methodology and Results ......................................... 14

  Appendix II – Management’s Response ........................................................................ 15


                                                                    i
                                     INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of
the Railroad Retirement Board’s (RRB) fiscal year (FY) 2013 compliance with the
Improper Payments Elimination and Recovery Act of 2010 (IPERA) which
amended the Improper Payment Information Act of 2002 (IPIA). 1,2

Background

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and
their families under the Railroad Retirement Act (RRA) and the Railroad
Unemployment Insurance Act (RUIA). During FY 2013, the RRB paid
$11.7 billion in retirement and survivor benefits to 568,000 beneficiaries and
$84.5 million in unemployment and sickness insurance benefits to 27,000
beneficiaries.

On July 22, 2010, the President signed IPERA into law. The Office of
Management and Budget (OMB) subsequently issued government-wide
guidance (the guidance) on the implementation of IPERA. 3 The guidance
defines an improper payment as any payment that should not have been made
or that was made in an incorrect amount (including overpayments and
underpayments) under statutory, contractual, administrative, or other legally
applicable requirements. An improper payment includes any payment to an
ineligible recipient, any payment for an ineligible good or service, any duplicate
payment, any payment for a good or service not received (except for such
payments where authorized by law), and any payment that does not account for
credit for applicable discounts.

The guidance also outlines what improper payments are considered significant.
A significant improper payment is defined as gross annual improper payments in
a program exceeding (1) both 2.5% of program outlays and $10 million of all
program or activity payments made during the fiscal year reported or
(2) $100 million (regardless of the improper payment percentage of total program
outlays). OMB determined that, beginning with FY 2013 reporting, a 1.5%
improper payment rate should apply. However, since the RRB uses prior year
data for its improper payment reporting, the 1.5% rate will not apply until FY 2013
improper payment data is reported in the FY 2014 Performance and
Accountability Report (PAR).



1
  Public Law 111-204.
2
  Public Law 107-300.
3
  OMB Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123,
April 14, 2011.

                                                 1
The guidance requires each agency’s Inspector General to review agency
improper payment reporting in the agency’s annual PAR or Annual Financial
Report (AFR) and accompanying materials to determine whether the agency
complied with the requirements as described in the list below:

      •    published a PAR or AFR for the most recent fiscal year and posted that
           report and any accompanying materials required by OMB on the agency
           public website;
      •    conducted a program specific risk assessment for each program or activity
           that conforms with Section 3321 of Title 31 United States Code (U.S.C.)
           (if required); 4
      •    published improper payment estimates for all programs and activities
           identified as susceptible to significant improper payments under its risk
           assessment (if required);
      •    published programmatic corrective action plans in the PAR or AFR
           (if required);
      •    published, and has met, annual reduction targets for each program
           assessed to be at risk and measured for improper payments;
      •    reported a gross improper payment rate of less than 10% for each
           program and activity for which an improper payment estimate was
           published in the PAR or AFR; and
      •    reported information on its efforts to recapture improper payments.

If an agency does not meet one or more of these requirements, it is not
compliant. The guidance also states that the agency’s Inspector General should
evaluate the accuracy and completeness of agency reporting and performance in
reducing and recapturing improper payments. The agency’s Inspector General is
to complete its review and determination within 120 days of issuance of the PAR.

OMB Circular A-11, Preparation, Submission, and Execution of the Budget,
Section 57 identified Federal programs for which agencies had to submit
erroneous payment information. The RRB’s RRA and RUIA benefit payment
programs were identified in OMB Circular A-11.

Within the RRB, the Office of Programs reports prior year improper payment data
in the current year’s PAR. For FY 2012, the RRB reported $11.3 billion in outlays
of which $61.8 million (0.54%) represents improper payments for the RRA
program. The RRB also reported $119.2 million in outlays of which $4.6 million
(3.9%) represents improper payments for the RUIA program.



4
    Improper Payments Elimination and Recovery Act of 2010.


                                                    2
Audit Objectives

The audit objectives were to:

   1. determine whether the RRB was in compliance with the requirements of
      IPERA;
   2. evaluate the accuracy and completeness of the RRB’s IPERA reporting;
      and
   3. evaluate the RRB’s performance in reducing improper payments.

Scope

The scope of this audit was the improper payment information reported in the
RRB’s FY 2013 PAR.

Methodology

To accomplish the audit objective, we:

   •   identified criteria from IPERA, as well as OMB’s government-wide
       guidance for IPERA;
   •   determined if IPERA reporting in the RRB’s FY 2013 PAR followed the
       format as provided by OMB Circular A-136, Financial Reporting
       Requirements;
   •   reviewed the improper payments portion of the RRB’s FY 2013 PAR and
       related postings to determine whether the RRB has met all of the stated
       requirements;
   •   drew a statistical sample from data provided by the Office of Programs
       and reviewed detailed overpayment amounts to determine whether the
       amounts used to calculate the most significant portion of RRA and RUIA
       improper payments is supported by information in agency systems (See
       Appendix I for sampling methodology and results.);
   •   evaluated the RRB’s performance in reducing and recapturing improper
       payments;
   •   interviewed RRB staff; and
   •   reviewed RRB documentation.




                                         3
We assessed the reliability of the details of overpayments on the report provided
by the Office of Programs. In order to assess the reliability, we: (1) electronically
tested the data for completeness and accuracy in RRB systems, and
(2) interviewed knowledgeable agency officials about the data. We determined
that the data were sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

We conducted our fieldwork at RRB headquarters in Chicago, Illinois from
January through March 2014.




                                          4
                               RESULTS OF AUDIT

Our audit of RRB’s FY 2013 compliance with IPERA determined that:

      1. the RRB complied with the applicable IPERA reporting requirements;
         however, the risk assessment process needs improvement;
      2. the RRB’s IPERA reporting was complete and we found no inaccuracies;
         and
      3. the RRB reduced improper payments for the RRA and RUIA benefit
         payment programs.

The requirements that the OIG evaluated, as well as the details of the audit and
our finding and recommendation for corrective action, follow. The full text of
management’s response is presented as Appendix II in this report.


Publication of a Performance and Accountability Report

The RRB met the requirement for the publication of a PAR.

The first OMB requirement is to publish a PAR for the most recent fiscal year and
to post that report and any accompanying information on the agency’s website.

This requirement includes:

      1. following the format as provided in OMB Circular A-136 and including a
         summary of their progress in completing these requirements in the
         Management Discussion and Analysis (MD&A) section of their PAR; and
      2. including the detailed portion of the reporting results as an appendix to the
         PAR.

The RRB published a PAR that followed the format required by OMB. The PAR
was also available on the RRB’s website. 5 A summary of IPIA initiatives to
improve the accuracy of benefit payments was provided in the MD&A section of
the PAR. The detailed portion of improper payment reporting information was
reported under “Other Accompanying Information” in the PAR.




5
    www.rrb.gov.


                                           5
Program Specific Risk Assessment

Utilizing OMB’s guidance in Circular A-11, the RRB met the requirement for
program specific risk assessments. However, the risk assessment process for
improper payments could be improved by addressing the aspects of the
Medicare program administered by the RRB.

The second OMB requirement is to conduct a program specific risk assessment
for each program or activity that conforms to Section 3321 of Title 31 U.S.C.

This law requires that:

   1. the agency shall review all programs and activities they administer, the
      year after IPERA’s enactment, which was FY 2011, to identify those that
      may be susceptible to significant improper payments;
   2. the agency shall review programs deemed not risk susceptible at least
      once every three years thereafter; and
   3. if a program experiences significant change in legislation and/or significant
      increase in its funding level, agencies are required to reassess the
      program’s risk susceptibility during the next annual cycle, even if it is less
      than three years from the last assessment.

In FY 2011, the agency performed a review of all programs that OMB had
identified as being susceptible to risk. Because they performed that review for
the programs specifically listed for the RRB by the OMB guidance, and because
three years had not passed since that first review, the RRB was in compliance
with requirement number 2.

RRB did not experience any significant change in legislation and/or a significant
increase in funding levels during the last fiscal year; therefore, no reassessment
of risk was required, and the agency was in compliance with requirement
number 3.

Regarding requirement number 1, the RRB’s RRA and RUIA benefit payment
programs were identified in Section 57 of OMB Circular A-11, which outlined
Federal programs for which each agency had to submit erroneous payment
information. The RRB’s FY 2013 PAR addressed the RRA and RUIA benefit
payment programs: therefore, based on OMB’s guidance, we found the agency
to be in compliance with requirement number 1.

Estimated improper payments totaled $61.8 million for the RRA benefit program
for FY 2012, with an improper payment percentage of 0.54% based on total
outlays of $11,347.3 million. Because the RRB’s improper payment percentage
is below the 2.5% threshold, the RRA benefit payment program is not considered
susceptible to significant improper payments.



                                         6
The RRB’s FY 2013 PAR also included statements related to the risk
assessment of the RUIA benefit payment program. Estimated improper
payments totaled $4.6 million for FY 2012, with an improper payment percentage
of 3.9% based on total outlays of $119.2 million. The RUIA program is not
considered susceptible to significant improper payments because it does not
meet the $10 million requirement that is part of the significant improper payment
definition.

Because RRA and RUIA programs were specifically identified by OMB’s
guidance, the RRB’s sections on improper payments in the FY 2013 PAR
addressed the risk assessments of the RRA and RUIA benefit payment programs
only. However, we found that the agency’s risk assessment process for improper
payments does not address the Railroad Medicare program, which is
administered by the RRB through an outside carrier.

In the agency's 2012 - 2018 Strategic Plan, RRB stated that the agency
administers various provisions of the Medicare program, including the selection
of a carrier to process Medicare Part B claims for railroad annuitants. This
strategic plan reported that for FY 2010, the carrier paid more than $869 million
to providers and beneficiaries for Part B services in Railroad Medicare.

Railroad Medicare was not addressed in the risk assessment for IPERA because
OMB had not specifically directed the RRB to report on the Medicare program in
Circular A-11. In addition, the agency stated that they only need to provide a
general discussion of their improper payment analysis and not a specific
enumeration of each aspect of their improper payment analysis.

The risk assessment should support a periodic review of all programs and
activities administered by the agency, including Railroad Medicare. If this risk
assessment is not performed on all programs, then improper payments may be
made that are not detected or reported.

Recommendation

   1. We recommend that the Office of Programs identify all programs they
      administer during the risk assessment process for improper payments.

Management’s Response

The Office of Programs concurred with recommendation 1. They stated that they
will include a discussion about the Medicare program in the risk assessment
section of the fiscal year 2014 Performance and Accountability Report.




                                        7
Improper Payment Estimates

The RRB met the requirement for improper payment estimates.

The third OMB requirement is to publish improper payment estimates for all
programs and activities identified as susceptible to significant improper payments
under its risk assessment (if required).

For programs that estimate an improper payment amount exceeding $10 million,
agencies shall include the following in their annual PAR:

   1. gross estimate of the annual amount of improper payments (total amount
      of overpayments plus underpayments) made in the program and the
      methodology used to arrive at that estimate; and
   2. net estimate (net total of both overpayments and underpayments). This
      amount is not required to be reported and cannot be substituted for the
      gross estimate in number 1 above.

For programs that estimate an improper payment amount less than $10 million,
agencies may include the same information as items 1 and 2 of the requirements
in the preceding paragraphs.

The RRB reported the gross amount of annual improper payment estimates for
the RRA program which totaled $63.1 million for FY 2013. They also provided
the methodology for this balance.

The RRB reported the gross amount of annual improper payment estimates for
the RUIA program which totaled $4.3 million for FY 2013. They also provided the
methodology for this balance.


Programmatic Corrective Action Plans

The RRB met the requirement for programmatic corrective action plans.

The fourth OMB requirement is to publish a programmatic corrective action plan
in the PAR (if required) and include the following:

   1. causes of improper payments;
   2. actions planned or taken to correct those causes;
   3. planned or actual completion date of those actions; and
   4. results of actions taken to address those causes.




                                        8
The RRB identified the root causes for improper payments and included a
summary of the corrective actions it has undertaken to correct them. Planned
and actual completion dates were provided for the corrective actions. The
agency reported the results of actions taken to address the causes of improper
payments.


Annual Reduction Targets

The RRB did not publish annual reduction targets in its FY 2013 PAR because
the requirement was not applicable to the agency for the current year.

The fifth OMB requirement provides that agencies shall set reduction targets for
future improper payment levels and a timeline within which the targets will be
reached. Reduction targets must be approved by the Director of OMB.

Because the programs for RRA and RUIA benefit payment programs do not meet
OMB’s criteria for significant improper payments, no annual reduction targets are
required to be published; therefore, the agency published no annual reduction
targets in its PAR.


Gross Improper Payment Rate

The RRB met the requirement for the gross improper payment rate.

The sixth OMB requirement is to report a gross improper payment rate of less
than 10% for each program or activity for which an improper payment estimate
was obtained and published in the PAR.

The RRB reported an FY 2012 improper payment rate of 0.54% for the RRA
benefit payment program, which is less than the 10% rate. For the RUIA benefit
payment program the RRB reported an improper payment rate of 3.9% for
FY 2012, which is less than the 10% rate.




                                        9
Recapture Improper Payments

The RRB met the requirement for the recapture of improper payments.

The seventh OMB requirement is to report information on its efforts to recapture
improper payments. The requirement provides that, for all programs and
activities that estimate an improper payment rate that exceeds $10 million,
agencies shall include the following in their annual PAR:

   1. a discussion on the amount of actual improper payments the agency
      expects to recover;
   2. a discussion on the process the agency will use to recover those improper
      payments;
   3. a statement whether the agency has the internal controls, human
      resources, and information systems and other infrastructure it needs in
      order to reduce improper payments to the level the RRB has targeted; and
   4. if the agency does not have the items listed in number 3 above, it should
      provide a description of the resources it has requested in its most recent
      budget submission to Congress to establish and maintain them.

The requirement also provides that, for all programs and activities that estimate
an improper payment rate that exceeds $10 million, agencies shall:
   5. include a description of the steps (including timeline) the agency has taken
      to ensure that all responsible parties are held accountable for reducing
      and recovering improper payments;
   6. ensure that responsible parties are held accountable through annual
      performance appraisal criteria for:
           a. meeting applicable improper payment targets;
           b. establishing and maintaining sufficient internal controls, including a
              control environment that prevents and promptly detects, and
              recovers improper payments; and
   7. include a description of any statutory or regulatory barriers which may limit
      the agency’s corrective actions in reducing improper payments.

In FY 2012, the RRB identified $42.6 million in overpayments and $40.9 million in
recoveries, which includes debts established prior to FY 2012, for RRA. In
FY 2012, the RRB identified $28.9 million in overpayments and $29.3 million in
recoveries, which includes debts established prior to FY 2012, for RUIA. They
also provided their methods for recovering improper payments.




                                        10
The RRB provides a statement that internal controls are effective and, although
there is limited staff, human capital has met the challenge of minimizing improper
payments. Information system initiatives to minimize improper payments are
identified along with their status and implementation progress. Future
information systems initiatives to improve the accuracy of benefit payments are
also identified.

Agency managers have links to their performance plans for meeting the RRB’s
strategic goals:

   •   providing excellent customer service by paying benefits accurately and
       timely; and
   •   serving as responsible stewards for our customers’ trust funds and agency
       resources.

There are no statutory or regulatory barriers limiting the RRB’s corrective actions
in reducing improper payments.


Payment Recapture Audit Programs

The RRB met this requirement by providing the necessary notification for not
having a payment recapture audit program.

The eighth OMB requirement is to report annually, in accordance with OMB
Circular A-136, on their payment recapture audit program in their PAR. If an
agency determines that it would be unable to conduct a cost-effective payment
recapture audit program for certain programs and activities that expend more
than $1 million, then it must notify OMB and the agency’s Inspector General of
this decision and include any analysis used to reach this decision.

A payment recapture audit program is an agency’s overall plan for risk analysis
and the performance of payment recapture audits and recovery activities. For
agencies that have programs that expend more than $1 million in a fiscal year, a
payment recapture audit program is a required element of their internal controls
over payments, if conducting such audits is cost-effective.

The agency reports that it is not feasible or cost-effective to implement a formal
payment recapture audit program. In FY 2011, the agency submitted an analysis
to OMB and the Inspector General justifying the reasons a payment recapture
audit program was not implemented. The analysis included a description of
ongoing activities and new initiatives for improving payment accuracy and
reducing erroneous payments, and their continuing recovery efforts.




                                        11
Evaluation of Completeness and Accuracy

The RRB’s reporting of improper payment balances in the FY 2013 PAR was
complete. All data we reviewed contained the necessary components. Our
review of the RRB’s FY 2013 improper payment reporting found no inaccuracies.
All data we reviewed was adequately supported in agency-provided
documentation.

OMB guidance provides that the agency’s Inspector General evaluate the
completeness and accuracy of agency reporting.


Evaluation of Performance

The RRB reduced improper payments for the RRA and RUIA benefit payment
programs.

OMB guidance provides that the agency’s Inspector General evaluate the
agency’s efforts to reduce and recapture improper payments.

According to agency data, while RRA outlays have increased approximately
15.6% over the past six years, improper payments have decreased, with a
cumulative 33.3% decrease from FY 2007 to FY2012. The improper payment
rate has never exceeded the 2.5% threshold established by IPERA.

Recovery of overpayments for RRA has met the OMB standard of at least 85%
by FY 2013.

RUIA outlays decreased by 0.75% from FY 2011 to FY 2012. Improper
payments decreased by 0.51% from FY 2011 to FY 2012. The improper
payment rate exceeds the threshold established by IPERA, but because the
improper payments are less than $10 million, the threshold does not apply.

Recovery of overpayments for RUIA has met the OMB standard of at least 85%
by FY 2013.

The agency has improved its performance over the past six years in reducing
overpayments and has been consistent with meeting the OMB prescribed
recovery rate.

The agency has focused its efforts on the RRA program where the majority of
improper payments originate. The RRB identified verification and local
administration as the major root causes of errors within this program. The RRB
has consistently focused its efforts on monitoring and reducing improper
payments.




                                      12
Other Matters – Future Improper Payment Estimates

The OIG’s ongoing investigations related to the occupational disability program
could result in higher future improper payment estimates for the RRA benefit
payment program.

We found that the agency did not include improper annuities which were paid to
Long Island Rail Road occupational disability annuitants in its improper payment
estimates for this reporting period because the amount of overpayments had not
been established. As investigations were not concluded, this did not affect the
agency’s compliance with IPERA for FY 2013. Since the OIG considers these
fraudulent annuities to be improper payments, the agency needs to consider
them in future improper payment estimates for the RRA benefit payment
program.

The RRB’s future improper payment estimates will also be impacted if the
agency’s risk assessment concludes that the Railroad Medicare Program is
susceptible to significant improper payments.




                                       13
                                                                      Appendix I


         STATISTICAL SAMPLING METHODOLOGY AND RESULTS

This appendix represents the methodology and results of our statistical sampling
test of data in agency systems that document the RRA and RUIA overpayment
estimates.

Test Objective and Scope

Our test objective was to determine whether the amounts used to calculate the
most significant portion of RRA and RUIA improper payments was supported by
information in agency systems. The scope consisted of overpayments
established under the RRA and the RUIA programs in the RRB’s system during
FY 2012.

Review Methodology

We used attribute sampling – one step acceptance using a 90% confidence level
and 5% tolerable error rate which directed a 45 case sample. The threshold for
acceptance was zero errors. Zero errors would permit the auditors to infer, with
a 90% confidence level, that the overpayment data agreed with the underlying
support in agency systems.

For each sample case, we compared the overpayment to supporting
documentation. We defined an error as an overpayment amount that could not
be supported by evidence in agency systems.

Results of Review

We identified no errors in our sample.

Audit Conclusion

Based on our evaluation, we can infer, with a 90% confidence level, that the
overpayment data is adequately supported by evidence in agency systems.




                                         14
     Appendix II




15
